 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




DIEP CHIROPRACTIC WELLNESS, INC.,
     RECEIVED UNALLOWABLE
     MEDICARE PAYMENTS FOR
      CHIROPRACTIC SERVICES



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Lori A. Ahlstrand
                                                Regional Inspector General

                                                       November 2013
                                                       A-09-12-02072
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Diep Chiropractic Wellness received at least $708,000 over 2 years for chiropractic
 services that were not allowable in accordance with Medicare requirements.

WHY WE DID THIS REVIEW

In calendar years (CYs) 2010 and 2011, Medicare allowed for payment approximately
$1.4 billion for chiropractic services provided to Medicare beneficiaries nationwide. A previous
Office of Inspector General review found that in 2006, Medicare inappropriately paid an
estimated $178 million (of the $466 million reviewed) for chiropractic services that were
medically unnecessary, incorrectly coded, or undocumented. After analyzing Medicare claim
data for CYs 2010 and 2011, we selected multiple providers for review, including a chiropractor
(selected chiropractor) who owned Diep Chiropractic Wellness, Inc. (Diep Chiropractic), in
El Monte, California. Our analysis indicated that the selected chiropractor was among the five
chiropractors who received the most in Medicare payments nationwide.

Our objective was to determine whether chiropractic services billed by the selected chiropractor
were allowable in accordance with Medicare requirements.

BACKGROUND

Medicare covers chiropractic services provided by a qualified chiropractor. Medicare requires
that these services be reasonable and necessary for the treatment of a beneficiary’s illness or
injury. Medicare limits coverage of chiropractic services to manual manipulation of the spine to
correct a subluxation (when spinal bones lose their normal position). To receive payment from
Medicare, a chiropractor must document the services as required by the Centers for Medicare &
Medicaid Services’ Medicare Benefit Policy Manual and the applicable Local Coverage
Determination for chiropractic services. In addition, depending on the number of spinal regions
treated, chiropractors may bill Medicare for chiropractic manipulative treatment using one of
three procedure codes.

HOW WE CONDUCTED THIS REVIEW

For CYs 2010 and 2011, Diep Chiropractic received Medicare Part B payments of $879,658 for
23,714 chiropractic services provided to Medicare beneficiaries by the selected chiropractor. We
reviewed a random sample of 100 chiropractic services. We provided copies of medical records
for these services to a medical review contractor to determine whether the services were
allowable in accordance with Medicare requirements.

WHAT WE FOUND

Of the 100 sampled chiropractic services, 7 services were allowable in accordance with Medicare
requirements. The remaining 93 services were not allowable: 70 were medically unnecessary,
11 were incorrectly coded, 9 were undocumented, and 3 were insufficiently documented. As a
result, Diep Chiropractic received $3,196 in unallowable Medicare payments.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)          i
On the basis of our sample results, we estimated that at least $708,022 of the $879,658 paid to
Diep Chiropractic for chiropractic services, or approximately 80 percent of the total amount paid,
was unallowable for Medicare reimbursement. These overpayments occurred because Diep
Chiropractic did not have adequate policies and procedures to ensure that chiropractic services
billed to Medicare were medically necessary, correctly coded, and adequately documented.

WHAT WE RECOMMEND

We recommend that Diep Chiropractic:

    •   refund $708,022 to the Federal Government and

    •   establish adequate policies and procedures to ensure that chiropractic services billed to
        Medicare are medically necessary, correctly coded, and adequately documented.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, Diep Chiropractic did not concur with our first
recommendation. Diep Chiropractic concurred that some of its medical documentation was
fragmented and provided information on actions that it had taken or planned to take to address
the portion of our second recommendation related to inadequate documentation. However,
regarding the remainder of our second recommendation, Diep Chiropractic disputed that any of
the services in our review were medically unnecessary or incorrectly coded.

After reviewing Diep Chiropractic’s comments, we maintain that our findings and
recommendations are valid.




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)           ii
                                                     TABLE OF CONTENTS

INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Administration of the Medicare Program .......................................................... 1
                 Chiropractic Services ......................................................................................... 1
                 Medicare Coverage of Chiropractic Services .................................................... 2
                 Diep Chiropractic and the Selected Chiropractor .............................................. 3

           How We Conducted This Review.................................................................................. 4

FINDINGS ................................................................................................................................. 5

           Chiropractic Services Were Not Allowable in Accordance With
            Medicare Requirements .............................................................................................. 5
                  Services Were Medically Unnecessary.............................................................. 5
                  Services Were Incorrectly Coded ...................................................................... 6
                  Services Were Undocumented ........................................................................... 6
                  Services Were Insufficiently Documented ........................................................ 8

           Diep Chiropractic Received Unallowable Medicare Payments ..................................... 8

           Diep Chiropractic Did Not Have Adequate Policies and Procedures ............................ 9

RECOMMENDATIONS ........................................................................................................... 9

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE............. 9

           Auditee Comments......................................................................................................... 10

           Office of Inspector General Response ........................................................................... 11

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 12
           B: Statistical Sampling Methodology ........................................................................... 14
           C: Sample Results and Estimates .................................................................................. 15
           D: Medicare Reimbursement Requirements for Chiropractic Services ........................ 16
           E: Auditee Comments ................................................................................................... 18


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                                                         iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

In calendar years (CYs) 2010 and 2011, Medicare allowed for payment approximately
$1.4 billion for chiropractic services provided to Medicare beneficiaries nationwide. A previous
Office of Inspector General (OIG) review found that in 2006, Medicare inappropriately paid an
estimated $178 million (of the $466 million reviewed) for chiropractic services that were
medically unnecessary, incorrectly coded, or undocumented. 1 After analyzing Medicare claim
data for CYs 2010 and 2011, we selected multiple providers for review, including a chiropractor
(selected chiropractor) who owned Diep Chiropractic Wellness, Inc. (Diep Chiropractic), in
El Monte, California. Our analysis indicated that the selected chiropractor was among the five
chiropractors who received the most in Medicare payments nationwide.

OBJECTIVE

Our objective was to determine whether chiropractic services billed by the selected chiropractor
were allowable in accordance with Medicare requirements.

BACKGROUND

Administration of the Medicare Program

The Medicare program provides health insurance coverage to people aged 65 and over, people
with disabilities, and people with end-stage renal disease. The Centers for Medicare & Medicaid
Services (CMS) administers the program.

Medicare Part B covers a multitude of medical and other health services, including chiropractic
services. Medicare Administrative Contractors (MACs) contract with CMS to process and pay
Part B claims. Palmetto GBA, LLC (Palmetto), was the MAC that processed and paid the
Medicare claims submitted by Diep Chiropractic.

Chiropractic Services

Chiropractic services focus on the body’s main structures—the skeleton, the muscles, and the
nerves. Chiropractors make adjustments to these structures, particularly the spinal column.
They do not prescribe drugs or perform surgical procedures, although they refer patients for
these services if they are medically indicated. Most patients seek chiropractic care for back pain,
neck pain, and joint problems.

The most common therapeutic procedure performed by chiropractors is known as spinal
manipulation, also called chiropractic adjustment. The purpose of spinal manipulation is to
restore joint mobility by manually applying a controlled force into joints that have become
restricted in their movement as a result of a tissue injury. When other medical conditions exist,
chiropractic care may complement or support medical treatment.
1
    Inappropriate Medicare Payments for Chiropractic Services (OEI-07-07-00390), issued May 2009.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)           1
Medicare Coverage of Chiropractic Services

Medicare Part B covers chiropractic services provided by a qualified chiropractor. To provide
such services, a chiropractor must be licensed or legally authorized by the State or jurisdiction in
which the services are provided. 2

Medicare requires that chiropractic services be reasonable and necessary for the treatment of a
beneficiary’s illness or injury, and Medicare limits coverage of chiropractic services to manual
manipulation (i.e., by using the hands) of the spine to correct a subluxation. 3 Chiropractors may
also use manual devices to manipulate the spine.

To substantiate a claim for manipulation of the spine, the chiropractor must specify the precise
level of subluxation. 4 Depending on the number of spinal regions treated, chiropractors may bill
Medicare for chiropractic manipulative treatment using one of three Current Procedural
Terminology (CPT) 5 codes: 98940 (for treatment of one to two regions), 98941 (for treatment of
three to four regions), and 98942 (for treatment of five regions). The CPT code for extraspinal
chiropractic manipulative treatment (98943) is not covered by Medicare. Figure 1 illustrates the
five regions of the spine, from the cervical area (neck) to the coccyx (tailbone).


                                 Figure 1: The Five Regions of the Spine




2
    CMS’s Medicare Benefit Policy Manual, Pub. 100-02 (the Manual), chapter 15, § 30.5.
3
 The Manual defines subluxation “as a motion segment in which alignment, movement integrity, and/or
physiological function of the spine are altered, although contact between joint surfaces remains intact” (chapter 15,
§ 240.1.2).

4
 The Manual, chapter 15, § 240.1.4, and Palmetto’s Local Coverage Determination (LCD) for chiropractic services
(L28249).
5
  CPT is a uniform coding system consisting of descriptive terms and identifying codes that are used primarily to
identify medical services and procedures provided by physicians and other health care professionals.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                               2
Medicare requires chiropractors to place the AT (Acute Treatment) modifier on a claim when
providing active/corrective treatment for subluxation. 6 Because Medicare considers claims
without the AT modifier to be claims for services that are maintenance therapy, it will deny these
claims. 7 However, inclusion of the AT modifier does not always indicate that the service
provided was reasonable and necessary.

To receive payment from Medicare, a chiropractor must document the services provided during
the initial and subsequent visits as required by the Manual and the applicable MAC’s LCD for
chiropractic services. Medicare pays the beneficiary or the chiropractor the amount allowed for
payment according to the physician fee schedule, less the beneficiary share (i.e., deductibles and
coinsurance).

Diep Chiropractic and the Selected Chiropractor

Diep Chiropractic was established in May 2007 and is located in El Monte, California. The
selected chiropractor is the sole owner of the company, has been a licensed chiropractor in
California since May 2001, and has provided chiropractic services in El Monte since 2003.

During CYs 2010 and 2011, Diep Chiropractic employed three chiropractors. These three
chiropractors and the selected chiropractor provided chiropractic services to their patients, and
Diep Chiropractic billed Medicare for those services. The claim data that we reviewed identified
the selected chiropractor as the performing provider for most of the services billed by Diep
Chiropractic for CYs 2010 and 2011. 8

The Medicare claim data also showed that all of the chiropractic services provided by the
selected chiropractor were billed with the AT modifier. Further, the majority (82 percent) of the
services were billed with CPT code 98942, which had the highest physician fee schedule amount
among the three CPT codes covered by Medicare for chiropractic services. Figure 2 on the
following page illustrates the percentage of services for each CPT code that the selected
chiropractor billed to Medicare for CYs 2010 and 2011.




6
 A modifier is a two-character code reported with a CPT code and is designed to give Medicare and commercial
payers additional information needed to process a claim.
7
 Maintenance therapy includes services that seek to prevent disease, promote health, and prolong and enhance the
quality of life or to maintain or prevent deterioration of a chronic condition (Palmetto’s LCD L28249).
8
 Because the claim data identified the selected chiropractor as the performing provider for all of the CY 2010
claims and 87 percent of the CY 2011 claims, we focused our review on services provided by the selected
chiropractor.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                          3
             Figure 2: Percentage of Services by CPT Code for CYs 2010 and 2011

                                                                  3% - CPT
                                                                   98940          15% - CPT
                                                                                    98941




                                           82% - CPT
                                            98942




Table 1 shows the allowed amount on the Medicare fee schedule for each CPT code during
CYs 2010 and 2011 for Southern California, where Diep Chiropractic was located.

     Table 1: Medicare-Allowed Amount for Each CPT Code for Chiropractic Services

                      Period                        CPT 98940          CPT 98941           CPT 98942
         January 1 – May 31, 2010                    $26.81             $37.05              $48.19
         June 1 – December 31, 2010                   27.40              37.87               49.24
         January 1 – December 31, 2011                27.59              37.83               48.70

HOW WE CONDUCTED THIS REVIEW

For CYs 2010 and 2011, Diep Chiropractic received Medicare Part B payments of $879,658 for
23,714 chiropractic services provided to Medicare beneficiaries by the selected chiropractor. We
reviewed a random sample of 100 chiropractic service line items. (A service line item
represented a chiropractic service included on a claim.) The selected chiropractor provided us
with copies of medical records as support for these services. 9 We provided those copies to a
medical review contractor to determine whether the 100 chiropractic services were allowable in
accordance with Medicare requirements. We also interviewed seven judgmentally selected
beneficiaries to obtain an understanding of the services provided to them at Diep Chiropractic.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

9
 Although we selected 100 services that, on the basis of the claim data, appeared to have been provided by the
selected chiropractor, the medical records showed that 77 had been provided by the selected chiropractor, 14 had
been provided by 1 of the 3 other chiropractors, and 9 lacked documentation identifying who had provided the
services.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                          4
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains the
details of our statistical sampling methodology, Appendix C contains our sample results and
estimates, and Appendix D contains details on the Medicare reimbursement requirements for
chiropractic services.

                                                    FINDINGS

Of the 100 sampled chiropractic services, 7 services were allowable in accordance with Medicare
requirements. The remaining 93 services were not allowable: 70 were medically unnecessary,
11 were incorrectly coded, 9 were undocumented, and 3 were insufficiently documented. As a
result, Diep Chiropractic received $3,196 in unallowable Medicare payments.

On the basis of our sample results, we estimated that at least $708,022 of the $879,658 paid to
Diep Chiropractic for chiropractic services, or approximately 80 percent of the total amount paid,
was unallowable for Medicare reimbursement. These overpayments occurred because Diep
Chiropractic did not have adequate policies and procedures to ensure that chiropractic services
billed to Medicare were medically necessary, correctly coded, and adequately documented.

CHIROPRACTIC SERVICES WERE NOT ALLOWABLE IN ACCORDANCE WITH
MEDICARE REQUIREMENTS

Services Were Medically Unnecessary

The Social Security Act (the Act) states that no payment may be made for any expenses incurred
for items or services that are not reasonable and necessary for the diagnosis or treatment of
illness or injury or to improve the functioning of a malformed body member (§ 1862(a)).
Federal regulations state that Medicare Part B pays for a chiropractor’s manual manipulation of
the spine to correct a subluxation only if the subluxation has resulted in a neuromusculoskeletal
condition for which manual manipulation is appropriate treatment (42 CFR § 410.21(b)).

The Manual states that (1) chiropractic maintenance therapy is not considered to be medically
reasonable or necessary and is therefore not payable (chapter 15, § 30.5(B)); (2) the manipulative
services provided must have a direct therapeutic relationship to the patient’s condition, and the
patient must have a subluxation of the spine (chapter 15, § 240.1.3); and (3) the chiropractor
should be afforded the opportunity to effect improvement or arrest or retard deterioration of the
condition within a reasonable and generally predictable period of time (chapter 15, § 240.1.5).

Of the 100 sampled chiropractic services, 70 were medically unnecessary. The results of the
medical review indicated that these services did not meet one or more Medicare requirements: 10

       •    Subluxation of the spine was not present or was not treated or both (56 services).

10
     The total exceeds 70 because 67 of the 70 services did not meet more than one Medicare requirement.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                  5
     •   Manual manipulation of the spinal subluxation was maintenance therapy or was not
         appropriate for treatment of the patient’s condition or both (67 services).

     •   Manual manipulation of the spinal subluxation would not be expected to result in
         improvement within a reasonable and generally predictable period of time (69 services).

For example, Diep Chiropractic received payment for a chiropractic service provided on
December 29, 2010, to a 74-year-old Medicare beneficiary. The medical review contractor
determined that the medical records did not support the medical necessity of the service because
manual manipulation of the spinal subluxation would not be expected to result in improvement
within a reasonable and predictable length of time. This beneficiary received 47 chiropractic
services during CYs 2010 and 2011.

Services Were Incorrectly Coded

Depending on the number of spinal regions treated, chiropractors may bill Medicare for
chiropractic manipulative treatment using CPT codes 98940, 98941, or 98942 (Palmetto’s LCD
L28249).

Of the 100 sampled chiropractic services, 11 were incorrectly coded. The claims for these
services were billed with a CPT code related to treatment of more spinal regions than what the
medical records supported. Most of these services were billed using CPT code 98942, the code
with the highest fee schedule amount. 11

For example, Diep Chiropractic billed for a chiropractic service provided on December 21, 2011,
with CPT code 98942, indicating that five regions of the spine had been treated; however, the
documentation in the medical records supported that only two regions had been treated. The
medical review contractor stated that the service should have been claimed using CPT code
98940 (for treatment of one to two regions). For CY 2011, the allowed amounts on the Medicare
fee schedule for CPT codes 98942 and 98940 were $48.70 (with the paid amount of $38.96) and
$27.59 (with the paid amount of $22.07), respectively. The difference in the paid amounts was
$16.89 and was unallowable for Medicare reimbursement.

Services Were Undocumented

The Act states that no payment may be made to any provider of services unless information has
been furnished to determine the amounts due the provider (§ 1833(e)).

The Manual and Palmetto’s LCD L28249 require chiropractors to document the services
provided to Medicare beneficiaries.

Of the 100 sampled chiropractic services, 9 were undocumented. Diep Chiropractic did not have
any documentation for three of these services, except for patient sign-in logs indicating that the

11
  To calculate the unallowable amount for each service, we used the difference between the amount paid to the
provider and the amount that should have been paid to the provider. The paid amount is equal to the allowed
amount, less the beneficiary share (i.e., deductibles and coinsurance).


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                       6
beneficiaries were in the office on the dates of service. For the remaining six services,
documentation in the medical records included the date and the beneficiary’s signature but not
the specific services provided. For one of these services, the documentation also included the
chiropractor’s signature.

For example, Diep Chiropractic received payment for a chiropractic service provided on
December 22, 2010, to a Medicare beneficiary during a subsequent visit. 12 Diep Chiropractic
provided documentation with only the beneficiary’s and chiropractor’s signatures (Figure 3). It
did not provide any other evidence of treatment.

                      Figure 3: Example of an Undocumented Subsequent Visit 13




                                                                                                       Our selected
Missing Chief                                                                                          date of service
 Complaint                                                                                             on 12/22/10
                                                                                                       had no
                                                                                                       indications of
                                                                                                       the
                                                                                                       beneficiary’s
                                                                                                       condition or
                                                                                                       the service
                                                                                                       performed on
                                                                                                       that date.

       Missing
      Treatment




The medical review contractor stated: “The only entries for this date of service are the date
stamp itself and the [beneficiary’s] and chiropractor’s signatures. This does not support the
existence of spinal subluxation on that date or that manual manipulation was performed.”


12
  During CYs 2010 and 2011, Diep Chiropractic received a total of $2,729 for 70 chiropractic services provided to
this beneficiary.
13
     The beneficiary’s and physician’s signatures have been redacted.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                           7
Services Were Insufficiently Documented

The Manual and Palmetto’s LCD require that the initial visit and all subsequent visits to the
chiropractor meet specific documentation requirements. See Appendix D for the initial visit
documentation requirements. The following must be documented for subsequent visits:
(1) patient history, including a review of the chief complaint, changes since the last visit, and a
system review if relevant; 14 (2) physical examination of the area of the spine involved in the
diagnosis, an assessment of change in the patient’s condition since the last visit, and an
evaluation of treatment effectiveness; and (3) the treatment given on the day of the visit
(the Manual, chapter 15, § 240.1.2(B), and LCD L28249).

Of the 100 sampled chiropractic services, 3 were insufficiently documented for subsequent
chiropractic visits. The medical review contractor determined that the medical records for the
three subsequent visits did not meet the documentation requirements as specified in the Manual
and Palmetto’s LCD L28249.

For example, Diep Chiropractic received payment for a chiropractic service provided on
January 24, 2011, to a Medicare beneficiary. 15 The medical review contractor stated:

         From the [medical] chart, there is again failure to follow the guideline requested
         by Medicare for all subsequent office visits. … The note for 1/24/2011 does not
         contain all of the following three elements and their components: History (chief
         complaint, changes since prior visit, and system review if relevant) and physical
         examination (exam of area of spine involved, assessment of changes, evaluation
         of treatment effect), and treatment given on date of visit. All elements are
         missing.

The medical review contractor also stated that this service “did not meet Medicare coverage
criteria.”

DIEP CHIROPRACTIC RECEIVED UNALLOWABLE MEDICARE PAYMENTS

Diep Chiropractic received $3,196 in unallowable Medicare payments for the 93 chiropractic
services that did not meet Medicare requirements. On the basis of our sample results, we
estimated that at least $708,022 of the $879,658 paid to Diep Chiropractic for chiropractic
services, or approximately 80 percent of the total amount paid, was unallowable for Medicare
reimbursement.




14
  A system review is an inventory of body systems that the chiropractor obtains by asking the patient a series of
questions to identify signs or symptoms that the patient may be experiencing or has experienced.
15
  During CYs 2010 and 2011, Diep Chiropractic received a total of $878 for 32 chiropractic services provided to
this beneficiary.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                           8
DIEP CHIROPRACTIC DID NOT HAVE ADEQUATE POLICIES AND PROCEDURES

The overpayments occurred because Diep Chiropractic did not have adequate policies and
procedures to ensure that chiropractic services provided to Medicare beneficiaries and billed to
Medicare were medically necessary, correctly coded, and adequately documented. The selected
chiropractor stated that Diep Chiropractic did not have written policies and procedures and used
Palmetto’s LCD L28249 to obtain information on how to document and bill for chiropractic
services.

The selected chiropractor also stated that he and other chiropractors at Diep Chiropractic
provided only active and corrective treatment to patients. Therefore, Diep Chiropractic
submitted all Medicare claims with the AT modifier. However, the Manual and Palmetto’s LCD
L28249 specifically state that inclusion of the AT modifier on a claim does not always indicate
that the service was medically necessary.

Diep Chiropractic had an in-house biller who was responsible for submitting each Medicare
claim on the basis of information contained in a record referred to as a “superbill.” 16 Before
billing Medicare, the biller compared the superbill with the patient sign-in log but not the
medical record. If the service provided was different from the service provided on a previous
visit, the chiropractor had to indicate on the superbill the CPT code that should be billed.
Otherwise, the staff used the same CPT code that had previously been used to bill Medicare.

The selected chiropractor stated that he reviewed selected medical records at random to ensure
that chiropractic services were documented in accordance with the LCD’s requirements.
However, it was unclear how often he conducted these reviews because there was no specific
review schedule or documentation of his reviews.

                                         RECOMMENDATIONS

We recommend that Diep Chiropractic:

     •   refund $708,022 to the Federal Government and

     •   establish adequate policies and procedures to ensure that chiropractic services billed to
         Medicare are medically necessary, correctly coded, and adequately documented.

     AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Diep Chiropractic did not concur with our first
recommendation. Diep Chiropractic concurred that some of its medical documentation was
fragmented and provided information on actions that it had taken or planned to take to address
the portion of our second recommendation related to inadequate documentation. However,
regarding the remainder of our second recommendation, Diep Chiropractic disputed that any of


16
  A superbill is an itemized form that some health care providers use to show which services were provided. A
superbill is the main data source for creating a health care claim.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                       9
the services in our review were medically unnecessary or incorrectly coded. Diep Chiropractic’s
comments are included in their entirety as Appendix E.

AUDITEE COMMENTS

In response to our first recommendation to refund $708,022 to the Federal Government, Diep
Chiropractic had the following comments:

    •   Diep Chiropractic stated that our conclusions were based on a “limited sample” and that
        our findings were applied to all services provided in 2010 and 2011 “despite the
        relatively small statistical sample used.”

    •   Diep Chiropractic stated that the 70 services were medically necessary because
        (1) although the records may be fragmented, the combined medical records demonstrate
        that each patient was properly diagnosed with subluxation of the spine (by x-ray or
        physician’s exam) and treated for subluxation of the spine and (2) a review of the entire
        medical record for each patient reveals that the treatment was appropriate for the patient’s
        condition and was not maintenance therapy. Regarding our example of a patient who
        received 47 services over a 2-year period, Diep Chiropractic stated that the number of
        services alone cannot form the basis for denial of a claim and that many of its patients
        “had a significant diagnosis and condition that would warrant longer term
        care ....”

    •   Diep Chiropractic stated that the 11 services were properly coded because the records
        from the initial exam for each patient demonstrated that there was a proper diagnosis of
        all 5 spinal regions to warrant the use of CPT code 98942. Diep Chiropractic also stated
        that, during our audit period, it was using an “electronic charting program” that would not
        allow its chiropractors to enter a diagnosis for all five spinal regions and that the
        improperly coded services were merely clerical errors due to software limitations.

    •   Diep Chiropractic stated that the nine undocumented services were related to inadequate
        documentation, which it addressed in its response to our last finding about three
        insufficiently documented services, and did not represent fraudulent or false claims.

    •   Diep Chiropractic stated that the three insufficiently documented services had
        documentation that “may be fragmented” but that most of the records clearly showed an
        improvement of the patient’s condition over time. Diep Chiropractic also stated that in
        “some instances, the element that was missing or that would need correction was
        relatively minor.”




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)         10
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Diep Chiropractic’s comments, we maintain that our findings and
recommendations are valid. Our responses to Diep Chiropractic’s comments are as follows:

       •   OIG used a sample size of 100, and the Departmental Appeals Board and Federal courts
           have upheld samples that are relatively small in comparison to their population sizes. 17
           Moreover, OIG recommends recovery at the lower limit of the confidence interval, which
           benefits the auditee. We fully disclosed the lower and upper limits of the confidence
           interval in Appendix C.

       •   The medical review contractor found that the 70 services were medically unnecessary on
           the basis of its review of all the medical records provided by Diep Chiropractic for each
           sampled service. The medical records included, but were not limited to, initial and
           subsequent visit documentation, if any, for the entire course of treatment related to the
           sampled service. 18 To ensure that Diep Chiropractic provided all supporting
           documentation, we requested that it review the medical records we had obtained and
           provide (1) additional documentation to support the sampled services or (2) a written
           statement indicating that the records were complete and that there was no additional
           documentation to provide. Diep Chiropractic responded to our request only by providing
           additional documentation for 92 of the 100 services. We submitted to the medical review
           contractor all of the medical records that Diep Chiropractic had provided to us. We based
           our findings on the results of the contractor’s review of those records, not on the number
           of services provided to each beneficiary.

       •   The medical review contractor evaluated the medical records, including the initial visit
           documentation, provided by Diep Chiropractic and found that the 11 services were
           claimed with a CPT code related to treatment of more spinal regions than what the
           records supported. 19 Diep Chiropractic provided handwritten documentation for 10 of
           these services. The remaining service had electronic documentation, which had a section
           listing 11 diagnoses. Therefore, the software limitation described by Diep Chiropractic
           was not the cause of these errors.

       •   For the nine services, Diep Chiropractic did not document the services provided. These
           services were unrelated to the three insufficiently documented services discussed in our
           last finding.

       •   For the three services, the Manual’s specific documentation requirements for subsequent
           visits were not met.

17
     See, e.g., Anghel v. Sebelius, 912 F. Supp.2d 4 (E.D.N.Y. 2012) (upholding a sample size of 95 claims).
18
  The course of treatment begins with the initial visit (as documented in the Medicare claim) and includes all of the
subsequent visits related to the diagnosis or treatment plan established during the initial visit.
19
 Ten of these services were claimed with CPT code 98942 (for treatment of five spinal regions), and one service
was claimed with CPT code 98941 (for treatment of three to four spinal regions).


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                          11
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

For CYs 2010 and 2011, Diep Chiropractic received Medicare Part B payments of $879,658 for
23,714 chiropractic services provided to Medicare beneficiaries by the selected chiropractor. We
reviewed a random sample of 100 chiropractic services. The selected chiropractor provided us
with copies of medical records as support for these services. We provided those copies to a
medical review contractor to determine whether the 100 chiropractic services were allowable in
accordance with Medicare requirements.

We did not review the overall internal control structure of Diep Chiropractic. Rather, we limited
our review of internal controls to those that were significant to the objective of our audit.

We conducted our audit from July 2012 to March 2013 and performed fieldwork at the office of
Diep Chiropractic in El Monte, California.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and guidance;

     •   interviewed CMS and Palmetto officials to obtain an understanding of Medicare
         reimbursement requirements and claim processing procedures for chiropractic services;

     •   interviewed the selected chiropractor and an employee of Diep Chiropractic, who was
         responsible for billing, to obtain an understanding of Diep Chiropractic’s procedures for
         (1) providing chiropractic services to beneficiaries, (2) maintaining documentation for
         services, and (3) billing Medicare for services; 20

     •   obtained from the CMS’s National Claims History (NCH) file the Medicare
         Part B claims for chiropractic services provided by the selected chiropractor, with
         service dates ending in CYs 2010 and 2011;

     •   created a sampling frame of 23,714 chiropractic services from the NCH data and
         randomly selected a sample of 100 services;




20
  During the interview with the selected chiropractor and the employee, the selected chiropractor’s attorney was
present. After obtaining the results from the medical review contractor, we met with the selected chiropractor and
his attorney to share our findings and clarify our understanding of the policies and procedures. The attorney stated
that the selected chiropractor was no longer willing to answer any of our questions. Therefore, our conclusions on
Diep Chiropractic’s lack of adequate policies and procedures were based on information obtained during the initial
interview.


Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                          12
    •   obtained medical records and other documentation from the selected chiropractor for the
        100 sampled services and provided them to the medical review contractor, who
        determined whether each service was allowable in accordance with Medicare
        requirements;

    •   reviewed the medical review contractor’s results and categorized each sampled service
        determined to be unallowable as one of four error types: medically unnecessary,
        incorrectly coded, undocumented, or insufficiently documented;

    •   estimated the amount of the unallowable payments for chiropractic services; and

    •   shared the results of our review with the selected chiropractor.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)       13
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of chiropractic services that the selected chiropractor provided during
CYs 2010 and 2011.

SAMPLING FRAME

The sampling frame consisted of 23,714 service line items for chiropractic services for CYs 2010
and 2011 for which we identified the selected chiropractor as the performing physician. Diep
Chiropractic received Medicare payments of $879,658 for these line items. A service line item
represented a chiropractic service included on a claim. We obtained the claim data from CMS’s
NCH file, updated as of June 2012.

SAMPLE UNIT

The sample unit was a chiropractic service.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

The sample size was 100 chiropractic services.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, Office of Audit Services (OAS), statistical
software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the sampling frame from 1 to 23,714. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of the unallowable payments
for chiropractic services.




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)          14
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                        Table 2: Sample Results

                                                                          Number of          Value of
                       Value of          Sample         Value of          Unallowable       Unallowable
  Frame Size            Frame             Size          Sample             Services          Services
    23,714             $879,658            100           $3,716               93              $3,196


                       Table 3: Estimated Value of Unallowable Services
                     (Limits Calculated for a 90-Percent Confidence Interval)

                        Point estimate                           $757,914
                        Lower limit                               708,022
                        Upper limit                               807,805




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)            15
            APPENDIX D: MEDICARE REIMBURSEMENT REQUIREMENTS
                        FOR CHIROPRACTIC SERVICES

Medical Necessity

The Act states: “…no payment may be made … for any expenses incurred for items or
services— (1) (A) which … are not reasonable and necessary for the diagnosis or treatment of
illness or injury or to improve the functioning of a malformed body member” (§ 1862(a)).

Federal regulations state: “Medicare Part B pays only for a chiropractor’s manual manipulation
of the spine to correct a subluxation if the subluxation has resulted in a neuromusculoskeletal
condition for which manual manipulation is appropriate treatment” (42 CFR § 410.21(b)).

The Manual states:

        Under the Medicare program, Chiropractic maintenance therapy is not considered
        to be medically reasonable or necessary, and is therefore not payable…. When
        further clinical improvement cannot reasonably be expected from continuous
        ongoing care, and the chiropractic treatment becomes supportive rather than
        corrective in nature, the treatment is then considered maintenance therapy
        (chapter 15, § 30.5(B)).

The Manual also states: “… the manipulative services rendered must have a direct therapeutic
relationship to the patient’s condition and provide reasonable expectation of recovery or
improvement of function. The patient must have a subluxation of the spine as demonstrated by
x-ray or physical exam…” (chapter 15, § 240.1.3).

The Manual further states: “The chiropractor should be afforded the opportunity to effect
improvement or arrest or retard deterioration in such condition within a reasonable and generally
predictable period of time” (chapter 15, § 240.1.5).

Coding

Palmetto’s LCD identifies three CPT codes that may be used to bill Medicare for chiropractic
services (LCD L28249). Depending on the number of spinal regions treated, chiropractors may
bill Medicare for chiropractic manipulative treatment using CPT codes 98940, 98941, or 98942.

Documentation

The Act states: “No payment shall be made to any provider of services or other person under
this part unless there has been furnished such information as may be necessary in order to
determine the amounts due such provider or other person under this part for the period with
respect to which the amounts are being paid or for any prior period” (§ 1833(e)).

The Manual requires that the initial visit and all subsequent visits meet specific documentation
requirements (chapter 15, § 240.1.2).



Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)          16
The following must be documented for initial visits:

    1. History

    2. Description of the present illness including:

                Mechanism of trauma;
                Quality and character of symptoms/problem;
                Onset, duration, intensity, frequency, location, and radiation of symptoms;
                Aggravating or relieving factors;
                Prior interventions, treatments, medications, secondary complaints; and
                Symptoms causing patient to seek treatment.

    3. Evaluation of musculoskeletal/nervous system through physical examination.

    4. Diagnosis: The primary diagnosis must be subluxation, including the level of
       subluxation, either so stated or identified by a term descriptive of subluxation. Such
       terms may refer either to the condition of the spinal joint involved or to the direction of
       position assumed by the particular bone named.

    5. Treatment Plan: The treatment plan should include the following:

                Recommended level of care (duration and frequency of visits);
                Specific treatment goals; and
                Objective measures to evaluate treatment effectiveness.

    6. Date of the initial treatment.

The following must be documented for subsequent visits:

        1. History

               Review of chief complaint;
               Changes since last visit;
               System review if relevant.

        2. Physical exam

               Exam of area of spine involved in diagnosis;
               Assessment of change in patient condition since last visit;
               Evaluation of treatment effectiveness.

        3. Documentation of treatment given on day of visit.




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)            17
                                      APPENDIX E: AUDITEE COMMENTS 





                                                CARLSON & }AYAKUMAR LLP
                                                        .   ~~   -          .. -.•. -- .   .. ·-··· . . ····--···
                                                                     ATTORN[YS AT LAW

                                                                     August 15, 20 13

             Lori A. Ahlstrand
             Regional Inspector General for Audit Services
             Office ofthe Inspector General
             Office ofAudit services, Region IX
             90-7th Street, Suite 3-650
             San Francisco, CA 941 03


                      Re: 	    Report Number A-09-12-02072

             Dear Ms. Ahlstrand,
                    Diep Chiropractic Wellness, Inc. ("DCW") has retained Carlson & Jayakumar LLP to
             represent it with respect to the Office of the Inspector General's ("OIG") Audit Report A-09-12­
             02072. Diep submits the following response to the OIG' s draft report entitled Diep Chiropractic
             Wellness, Inc., Received Unallowable Medicare Payments for Chiropractic Services.

                      In the draft report, the OIG recommended that DCW:

                      1. 	     Refund $708,022 to the Federal Government; and
                      2. 	     Establish adequate policies and procedures to ensure that chimpractic services
                               billed to Medicare arc medically necessary, correctly coded, and adequately
                               documented.

                    DCW has set forth its statement ofconcurrence and non-concurrence below, as well as a
             statement of the corrective action plan taken or planned for each statement of"concurrcnce" as
             requested by the OIG.

                      General Comments

                    DCW was first notified on January 23, 2012 that the OIG intended on conducting a 

             preliminary review of chiropractic claims. DCW has been more than cooperative and 

             accommodating to the OIG' s requests as DCW is not culpable of any fraudulent or other 

             deceptive billing practices. Despite having no obligation to do so, DCW has voluntarily 

             provided the OIG with interviews, information and records. 


                     Based o n the draft report, it appears that the primary issues the OIG has identified with
             respect to DCW relates to or stems from purported inadequate documentation. The DCW urges


         2424 S. E. BRISTOL ST. SUIT E 300   N fWP O Rr Bl ACH . CA 92660             P: 949 .222.200H              F: 'J4'!.222.2012 · WWWC)ATTORNEYS .COM




Medicare Payments for C hiropractic S ervices at Diep Chiropractic Wellness (A-09-12-02072)                                                                   18
             August 14,2013
             Page 2

             the 010 to take into account its continued cooperation with rt:spect to this matter, as well as the
             information set forth below, for resolution purposes. In addition, DCW requests that the OIG
             take into consideration the fact that the amount of reimbursement requested from DCW would
             create a financial hardship for DCW and may cause it to go out of business.

                     DCW urges the OIG to allow DCW to move forward with a focus towards investing its
             resources in compliance activities. DCW has not engaged in any improper, fraudulent or
             unethical billing practices. DCW further requests that the OIG provide it with an opportunity to
             submit transcribed notes of the patient files reviewed by the OTG for clarity and fairness and to
             further this discuss this matter once it has had the opportunity to review this response.

                    OlG Recommendation

                    Refund $708,022 to the Federal Government.

                    Diep's Response

                    DCW does not concur with this recommendation.

                    The OIG conducted an audit for calendar years 20 I 0 and 2011. The OIG states that
             DCW was paid $879,658 for 23,714 chiropractic services provided to Medicare beneficiaries.
             The OIG conducted a review of I 00 chiropractic services out of the 23,714 identified over this
             two-year period. Based on this limited sample, the OIG concluded that of the 100 chiropractic
             services sampled, only 7 services were allowable in accordance with Medicare requirements .
             According to the OIG, the remaining claims were deficient for one of four reasons: (l) they were
             medically unnecessary; (2) they were incorrectly coded; (3) they were undocumented; or (4) they
             were insufficiently documented.

                    The OIG then applied its findings based on these 100 services to all claims provided in
             2010 and 2011, despite the relative! y small statistical sample used in reaching such findings.
             DCW disagrees with the OIG's opinion that 93% of the claims were improperly paid.

                    I. 	    Medical Necessity

                    Of the 100 services sampled, the OIG found that 70 of the services were medically
             unnecessary. Ofthe 70 services identified as "medical unnecessary" , the OIG contends that the
             services did not meet one or more Medicare requirements in that:

                            I. 	    Subluxation of the spine w as not present and/or was not treated (56
                                    services);
                            2. 	    Manual manipulation of the sp inal subluxation was maintenance therapy
                                    and/or was not appropriate for treatment of the patient's condition (67
                                    services); and/or




Medicare Pay ments for C hiropractic Services at D iep Chiropractic Wellness (A-09-12-02072)                       19
             August 14,2013
             Page 3

                                 3.      Manual manipulation ofthe spinal subluxation would not be expected to
                                         result in improvement within a reasonable and generally predictable
                                         period oftime (69 services).

                        The Claims DCWSubmilted Were Proper-Each Patient Was Properly Diagnosed and
                        Treatedfor Subluxation of/he Spine

                    All ofDCW's patients are examined and x-rayed and many receive a spinal surface EMG
             and thermal scan to detect spinal misalignment. While DCW admits that some ofthe
             documentation is fragmented, if combined, it evidences medical necessity for the treatment
             rendered. While DCW's records may be fragmented, it is entirely proper for an x-ray to
             demonstrate the medically necessity for the treatment rendered. The Centers for Medicare and
             Medicaid Services ("CMS") provides that subluxation may be demonstrated by x-ray or by a
             physician's exami The CMS manual states the following:

                                 "An x-ray may be used to document subluxation. The x-ray must
                                 have been taken at a time reasonably proximate to the initiation of
                                 a course of treatment. Unless more specific x-ray evidence is
                                 warranted, an x-ray is considered reasonably proximate if it was
                                 taken no more than 12 months prior to or 3 months following the
                                 initiation of a course ofchiropractic treatment. In certain cases of
                                 chronic subluxation (e.g., scoliosis), an older x-ray may be
                                 accepted provided the beneficiary's health record indicates the
                                 condition has existed longer than 12 months and there is a
                                 reasonable basis for concluding that the condition is permanent. A
                                 previous CT scan and/or MRI is acceptable evidence if a
                                 subluxation of the spine is demonstrated."

                     It is important to note that the OIG looked at 100 separate services during its review. As
             set forth above, DCW admits that its records may be fragmented, however, if combined, would
             support the diagnosis of subluxation of the spine. DCW has not submitted any claims to
             Medicare for patients who were not being treated for subluxation of the spine, or who were never
             diagnosed with subluxation of the spine. It appears, based on the report and DCW' s
             acknowledgement that some of its records may be fragmented, that the heart of the issue is not a
             false or erroneous claim being submitted, but rather an issue with fragmented documentation.

                     With respect to physical therapy services, the Claims Benefit Manual m<mdatcs that
             "Contractors shall consider the entire record when reviewing claims for medical necessity so that
             the absence of an individual item ofdocumentation does not negate the medical necessity of a
             service when the documentation as a whole indicates the service is necessary."2 The same policy
             should hold true for chiropractic services. Based on the entire record, there is a showing of
             medical necessity for the services rendered by DCW.


             1
                 Medicare Benefit Policy Manual, Chapter 15, §240.1.2.
             2
                 Claims Benefit Manual , Chapter 15, §




M edicare Payments for C hiropractic S ervices at Diep Chiropractic Wellness (A-09-12-020 72)                     20
              August 14, 20 I 3
              Page 4

                     The combined records demonstrate that DCW's patients were properly diagnosed with
              subluxation ofthe spine per CMS's criteria (via x-ray or physician's exam) and were treated
              based on that diagnosis. The patients that were treated have already received the benefit, as has
              CMS, and thus any reimbursement to CMS would result in unjust enrichment.

                       Despite the fact that CMS's beneficiaries have benefited from the treatment received, the
              OIG has recommended DCW reimburse CMS for a benefit already conferred upon it and its
              beneficiaries. The general concept of the doctrine of unjust enrichment is that the law requires a
              person who has been unjustly enriched at the expense of another to make restitution to the other.3
              It is clear that any reimbursement by CMS for the proven benefits already received by its
              members would result in CMS being unjustly enriched, as CMS and its beneficiaries have
              already received the benefit. General principles of fairness and equity prevent CMS from
              receiving such a benefit, and then seeking reimbursement for it afterwards.

                      Based on the entire record, it is clear that the treatment provided to DCW's patients were
              medically necessary per CMS's guidelines. Thus, DCW disputes the OIG's request for a refund
              based on its allegation that the treatment was "medical unnecessary." Moreover, a review of the
              entire medical record for each patient reveals that the treatment was appropriate for the patient's
              condition, and was not maintenance therapy.

                       The Treatment Rendered to the Beneficiaries Was Appropriate

                     The OIG notes only one example in its draft report in support of its opinion that DCW' s
              services constituted maintenance therapy and/or were not expected to result in improvement
              within a reasonable and generally predictable period oftime. The example is of a 74-year-old
              beneficiary who received 47 chiropractic services over a two-year period (2010 to 201 1).
              However, there is no explanation as to why the medical review contractor believed that such
              services "would not be expected to result in improvement within a reasonable and predictable
              length oftime" aside from the amount of services noted.

                      The number of services alone cannot form the basis for a denial of claim. First, CMS has
              not imposed a "cap" imposed on the number of chiropractic services that a chiropractor can
              provide to a beneficiary. Furthermore, the Medicare Benefits Manual specifically states, "acute
              subluxation (e.g., strains or sprains) problems may require as many as three months of
              treatment. .." 4 The Manual goes on to state that "chronic spinal joint condition implies, of
              course, that condition existed for a longer period of time and that, in all probability, the involved
              joints have already 'set' and fibrotic tissue has developed. This condition may require longer
              treatment time ... " 5

                     Thus, CMS agrees that longer treatment times may be necessary for patients with chronic
              conditions. In addition, in its previous opinion entitled Inappropriate Medicare Paymen ts For

              3
                Enterpris e Leasing Corp. v. Shug ar t Cmj J (1991) 231 Cai.App.3d 737.
              4
                Medicare Benefits M anual, Chapter 15, §240.1.5.
              s !d.




M edicare P ay me nts for C hiropractic S ervices at Diep Chiropractic Welln ess (A -09 -12 -020 72)                  21
             August 14, 2013
             Page 5

             Chiropractic Services, the OIG recommended "implementing a cap on all chiropractic claims[.]"
             CMS responded to this recommendation indicating that it would need objective data and studies
             in order to impose a national cap on the number of sessions a chiropractor could provide to a
             Medicare beneficiary. To date, CMS has not imposed a cap on the number ofchiropractic
             services that a chiropractor could provide to a Medicare beneficiary.

                      Moreover, there is no indication in the OIG's draft report one way or the other whether
             this beneficiary suffered a recurrence and/or exacerbation of his or her condition over this two­
             year period that would have prompted additional treatment. Local coverage determinations
             (LCD) are defined in Section 1869(f)(2)(B) of the Social Security Act (the Act). This section
             states: "For purposes of this section, the term 'local coverage determination' means a
             determination by a fiscal intermediary or a carrier under part A or part B, as applicable,
             respecting whether or not a particular item or service is covered on an intermediary- or carrier­
             wide basis under such parts, in accordance with section 1862(a)(l)(A)."

                     Per the Palmetto (California Medicare Intermediary) LCD 28249, the following is used to
             indicate medical necessity:

                            1. 	 Acute subluxation: A patient's condition is considered acute
                                 when the patient is being treated for a new injury, ident ified by
                                 x-ray or physical exam as specified above. The result of
                                 chiropractic manipulation is expected to be an improvement in,
                                 or arrest ofprogression, of the patient's condition.

                                2. Chronic subluxation: A patient's condition is considered
                                chronic when it is not expected to significantly improve or be
                                resolved with further treatment (as in the case with an acute
                                condition), but where the continued therapy can be expected to
                                result in some functional improvement. Once the clinical status
                                has remained stable for a given condition, without expectation
                                of additional objective clinical improvements, further
                                manipulative treatment is considered maintenance therapy and
                                is not covered.

                                For Medicare purposes, a chiropractor must place an AT
                                modifier on a claim when providing active/corrective treatment
                                to treat acute or chronic subluxation. However the presence of
                                the AT modifier may not in all instances indicate that the
                                service is reasonable and necessary. As always, contractors
                                may deny, if appropriate, after medical review.

                                3. Maintenance therapy: Maintenance therapy includes




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                        22
             August 14,2013
             Page 6

                               services that seek to prevent disease, promote health and
                               prolong and enhance the quality of life, or maintain or prevent
                               deterioration of a chronic condition. When further clinical
                               improvement cannot reasonably be expected.from continuous
                               ongoing care, and the chiropractic treatment becomes
                               supportive rather than corrective in nature, the treatment is
                               then considered maintenance therapy. The AT modifier must
                               not be placed on the claim when maintenance therapy has been
                               provided. Claims without the AT modifier will be considered as
                               maintenance therapy and denied. Chiropractors who give or
                               receive from beneficiaries an ABN shall.follow the instructions
                               in Pub. 100-04, Medicare Claims Processing Manual, Chapter
                               23, section 20. 9.1.1 and include a GA (or in rare instances a
                               GZ) mod(fier on the claim.

                               Maintenance therapy is not a covered benefit.

                               4. Exacerbations: An exacerbation is a temporary marked
                               deterioration ofthe patient's condition due to flare-up ofthe
                               condition being treated. This must be documented on the claim
                               form and must be documented in the patient's clinical record,
                               including the date of occurrence, nature of the onset or other
                               pertinent factors that will support the reasonableness and
                               necessity oftreatments for this condition.

                               5. Recurrence: A recurrence is a return of symptoms of a
                               previously treated condition that has been quiescent for 30 or
                               more days. This may require the reinstitution of therapy.

                     Many ofDCW's patients had a significant diagnosis and condition that would warrant
             longer term care particularly based on exacerbation and flare ups ofchronic conditions. 47 visits
             over a two-year period is not unusual or unreasonable when a patient has a significant secondary
             diagnosis and exacerbation. In fact, many of the patients that DCW treats have been diagnosed
             with sciatica. Per the Palmetto LCD 28249, sciatica is a category III diagnosis that may require
             long term treatment.

                     In addition, in all ofDCW's charts, the SOAP method was maintained. To demonstrate
             the efficacy of care, DCW charted the patient's progress using arrows. For example, per the
             Medicare documentation requirements for subsequent visits, the providers reviewed the patient's
             chief complaint. "The review is as simple as asking the patient, "How does your low back pain




M e dicare Payments for Chiropractic S ervices at Diep C hiropractic Wellness (A -09 -12-02072)                  23
             August 14, 2013
             Page 7

            (neck pain, etc.) feel today?"~ DCW would document the review ofthe chiefcomplaint utilizing
            an·ows. An arrow pointed down would indicate a decrease, an arrow pointing up would indicate
            an increase, and an arrow pointing across would indicate no change. The same arrow system
            was used to document any changes since the last visit. Furthermore, documentation of treatment
            on the date of the visit was charted using an arrow pointing across to indicate that the providers
            treated the same regions as the previous visit.

                    The arrows used demonstrate a measured and quantified improvement as a result ofthe
            care, which validates the effectiveness ofthe treatment. The arrows charted demonstrate the
            corrective nature of the treatment provided by showing decreased subjective complaints and
            improvement in objective factors that demonstrate the effectiveness and necessity of care. The
            records demonstrate, based upon the daily chart notes utilizing the arrows, coupled with there­
            examination notes, that treatment was medically necessary.

                     "Medicare clearly indicates that they consider each visit to be part of a treatment episode
            concerned with a specific condition or series of conditions." 7 Thus, the course of treatment as a
            whole should be reviewed to determine medical necessity, as opposed to looking at a small
            sample ofindividual dates ofservice. When the treatments are viewed as a whole (including
            initial exam andre-exams), it demonstrates that the treatment was correct ive in nature and not
            maintenance care. As long as the assessments continue to demonstrate improvement in function,
                                                               8
            Medicare considers the care medically necessary.

                    While the charting method ofusing arrows may not be the most effective method, it does
            demonstrate the necessity for the treatment provided. However, given the OlG's draft report and
            recommendation regarding documentation set forth below, DCW is implementi ng changes in its
            policies to provide more information than merely arrows to indicate progression of care. The
            specific changes that are being implemented arc set forth below.

                    II.     Incorrectly Coded

                     The OIG indicated that II of the 100 services it reviewed were improperly coded.
            However, the fact of the matter is that there was a proper diagnosis of all five spinal regions to
            warrant the use of CPT 98942. The initial report for each patient demonstrates the diagnosis of
            all five spinal regions to warrant the use of CPT 98942. During the audit review pe riod, DCW
            was using an electronic charting program that contained certain limitations, one of which was a
            limitation on the number of spinal regions that could be inputted. Thus, the program would
            simply not allow D CW ' s providers to enter a diagnosis for all tive spinal regions. The records
            from the initial exam, however, do demonstrate the diagnosis of all five spinal regions which
            would warrant the use the CPT 98942.

            6
             Medicare Compliance Manual.for Chiropractors, The Schad Group, LP (2009-20 11).
            7
             ld
            8/d.




Medicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                          24
             August 14,2013
             Page 8

                     As such, it is clear that there have been no false or erroneous claims submitted based on
             coding. The situation merely amounts to, at a maximum, a clerical error, due to the software
             limitations. Clerical error is defined to include, "human or mechanical errors on the part of the
             party or the contractor such as- (i) Mathematical or computational mistakes; (ii) Inaccurate data
             entry; or (3) Denials of claims as duplicates. 9 Medicare recognizes that clerical errors occur,
             including incorrect data items and inaccurate data entry. In fact, the Medicare Claims Processing
             Manual Provides the following:

                              We believe that it is neither cost efficient nor necessary for
                              contractors to correct clerical errors through the appeal process.
                              Thus,§ 405 .927 and §405.980 (a)(3) require that clerical errors be
                              processed as rcopenings rather than appeals. CMS defines clerical
                              errors (including minor errors or omissions) as human or
                              mechanical errors on the part of the party or the contractor, such
                              as:

                                       Mathematical or computational mistakes; 

                                       Transposed procedure or diagnostic codes; 

                                       Inaccurate data entry; 

                                       Misapplication of a fee schedule; 

                                       Computer errors; or, 

                                       Denial of claims as duplicates which the party believes 

                                       were incorrectly identified as a duplicate. 

                                       Incorrect data items, such as provider number, use of a 

                                                                    10 

                                       modifier or date of service.

                     Given the above, DCW disputes the DIG's request for a refund based on its allegation
             that 11 ofthe 100 services were improperly coded.

                     III.     Undocumented

                    Again, all of the services provided by DCW and submitted to CMS were medically
             necessary and proper. The fact that some patients had undocumented reports relates to
             inadequate documentation, addressed below, and do not represent any fraudulent or fals e claims.
             DCW is committed to improving its policies and procedures related to documentation and has
             already begun implementing a corrective action plan as set fmth below.

                     IV.      Insufficiently Documented

                     In all ofDCW's charts, the SOAP method was maintained. To demonstrate the efficacy
             of care, DCW chmted the patient's progress using arrows. DCW admits that some of its
             documentation may be fragmented, however, in most ofthe records independently reviewed by
             DCW, the records clearly showed an improvement of the patient's condition over time. In some

            "42 C.F.R. 405.980(a)(3). 

            10
               Medicare Claims Processing Manual, Chapter 3 4, Sectio n I 0.4. 





M edicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                       25
             August 14, 2013
             Page 9

             instam;es, the dement lhal was missing ur that would need correction was relativdy rninur.
             DCW has already begun addressing the issues regarding its documentation policies and
             procedures and will continue to work toward constant improvement in this area.

                    OIG Recommendation

                   Establish adequate policies and procedures to ensure that chiropractic services billed to
             Medicare are medically necessary, correctly coded, and adequately documented.

                    DCW's Response

                     DCW disputes that any of the claims submitted to CMS were not medically necessary or
             correctly coded. As set forth above, the claims at issue involve patients who were all properly
             diagnosed, and treated, for subluxation of the spine.

                     That being said, DCW concurs that some of its medical documentation is fragmented. In
             order to address this issue, DCW has implemented various protocols to ensure compliance with
             Medicare's guidelines. DCW is dedicated to ensure that all ofDCW's employees and
             contractors arc educated and trained on new and existing CMS policies. The following is a
             summary of the corrective action plan that DCW has begun implementing.

                 1. 	 All providers are required to document patient visits within 24 hours of the visit.

                2. 	 DCW's providers and personnel are required to attend from time to time, seminars and
                     webinars on Medicare documentation requirements. DCW will continue to attend
                     additional educational seminars and webinars and continue to implement the information
                     obtained from these programs into its policies and procedures. To date, DCW has
                     attended the following programs put on by the Chirocode Institute:
                         a. 	 Wellness Care vs. Medically Necessary Care (September 28, 2011)
                         b. 	 Medicare Reviews, What Do They Want Now? (November 17, 201 1)
                         c. 	 Medicare Update: Reviews and Audits (December 15, 2011)
                         d. 	 Proving Medical Necessity and functional Improvement (February 16, 2012)

                3. 	 DCW will require more detailed chart notes and will supplement the "arrow system" set
                     fotih above with more detailed notes. Several parameters will be incorporated into
                     DCW's policies, including the following:

                        a. 	 The treatment plan established for each patient will be set forth with the planned
                             scope and course of care, including the defined and quantifiable clements to
                             measure that the goals of care are being achieved.
                        b. 	 Follow-up examinations will be provided and documented at least every 30 days.
                        c. 	 The providers will be required to document outcome assessment tools such as
                             neck and low back disability indexes.
                        d. 	 Providers will be required to document subjective and objective factors relevant
                             to the patient's progress in quantifiable methods.




M edicare Payments for Chiropractic Services at Diep Chiropractic Wellness (A-09-12-02072)                        26
             August 14,2013
             Page 10

                        e. 	 In addition to the use of arrows, written details shall be provided to document the
                             patient's progression over the course of treatment.

                 4. 	 Stafi will be required to ensure that chart notes are complete and dates are included prior
                      to submitting any claims to CMS.

                     Conclusion

                     DCW opened its doors approximately eight years ago and since that time has focused its
             practice on helping seniors with disabling spinal degenerative conditions and sciatica without the
             use ofdrugs or expensive and risky surgical procedures. Such a substantial refund, as
             recomrnended by the OIG, would result in severe financial hardship to DC W and may even
             cause DCW to go out of business, thus, leaving its patient's without access to the care that they
             require. DCW has acted in good faith in submitting its claims to CMS and has been more than
             cooperative with respect to the OIG's audit.

                     The allegations contained in the draft report relate to or stem from issues with inadequate
             documentation, and DCW is committed to correcting any deficiencies in this regard. DCW
             requests that the OIG accept is resolution of using its resources to implement an appropriate
             corrective action plan to address these issues, rather than submit reimbursement for the amount
             set forth in the draft report. As demonstrated above, this amount is overbroad given that the
             services rendered were in fact medically necessary and resulted in a valuable benefit being
             conferred onto CMS's beneficiaries. At a minimum, DCW requests that the OIG significantly
             reduce the amount of refund that has been requested based on the totality of the circumstances .
             DCW requests that the OIG provide it with an opportunity to further this discuss this matter onc e
             it has had the opportunity to review this response.




                                                    (\er~t'      /\
                                                    >.~"~· ~
                                                   Jehan Jayakumar
                                                   Alicia Dragoo
                                                   CARLSON & JAYAKUMAR LLP

             AD/JNJ




M edicare Payments for C hiropractic Services at D iep Chiropractic Wellness (A-09-12-02072)                        27
